           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    FUGITIVE FELONS SERVING AS
      REPRESENTATIVE PAYEES


      March 2009   A-01-08-18021




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      March 31, 2009                                                                            Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Fugitive Felons Serving As Representative Payees (A-01-08-18021)


           OBJECTIVE
           Our objective was to assess the Social Security Administration’s (SSA) controls to
           prevent fugitive felons from serving as representative payees.

           BACKGROUND
           Some individuals cannot manage their finances because of their youth, mental, and/or
           physical impairments. Consequently, Congress granted SSA the authority to appoint
           representative payees to receive and manage these individuals’ Social Security benefit
           payments. 1

           In a March 2003 report, we concluded that SSA should use fugitive warrant information
           to screen representative payees because a fugitive felon may not be in the best
           position to manage a beneficiary's funds. 2 After our report was issued, the Social
           Security Protection Act of 2004 was signed into law. This law, which took effect in
           April 2005, contains a provision that disqualifies fugitive felons from serving as
           representative payees. 3




           1
            The Social Security Act §§ 205(j)(1) and 1631(a)(2), 42 U.S.C. §§ 405(j)(1) and 1383(a)(2).
           A representative payee is a person or organization selected by SSA to receive and manage benefits on
           behalf of an incapable beneficiary. Payees are responsible for using Social Security benefits to serve the
           beneficiary’s best interests.
           2
               SSA OIG, Screening Representative Payees for Fugitive Warrants (A-01-02-12032), March 2003.
           3
            Pub. L. No. 108-203 § 103. See also Social Security Act §§ 205(j)(2)(B)(i)(V), 202(x)(1)(A)(iv),
           1631(a)(2)(B)(ii)(V), (iii)(V), and 1611(e)(4)(A), 42 U.S.C. §§ 405(j)(2)(B)(i)(V), 402(x)(1)(A)(iv),
           1383(a)(2)(B)(ii)(V), (iii)(V), and 1382(e)(4)(A).
Page 2 - The Commissioner


THE FUGITIVE FELON PAYEE IDENTIFICATION PROCESS

SSA obtains the names, dates of birth, and Social Security numbers of individuals with
outstanding warrants from law enforcement agencies. After SSA verifies the
individuals’ identities through its Enumeration Verification System and the Office of the
Inspector General (OIG) confirms the warrants are still valid, the information is sent to
                                                          4
the Agency’s Fugitive Felon SSA Control File (FFSCF).

SSA began matching data in FFSCF and the Agency’s Representative Payee System
(RPS) in November 2005. 5 Each day, the data in FFSCF are compared to RPS to
identify fugitive felons who are payees or fugitive felons who have an application
pending to serve as a representative payee. 6 If data match at the first attempt, RPS is
annotated and the addresses of the payees or applicants are returned to FFSCF to be
shared with law enforcement agencies.

If there is a match, an alert is generated in RPS indicating the payee is a fugitive felon.
After 60 days, 7 the OIG will confirm and return unresolved open warrants to FFSCF for
a second comparison to RPS. If the data match a second time—indicating the payee or
applicant still has an outstanding felony warrant—an alert is sent to the local SSA field
office and the issue is annotated in RPS. Then, SSA field office staff will find a more
suitable payee and/or consider direct payment, if appropriate. 8 (See Appendix B for a
flowchart that illustrates this process.)

METHODOLOGY
To conduct our review, we obtained a file of fugitive records from our Office of
Investigations and identified 14,594 individuals for whom arrest warrants had been
issued and who were representative payees for SSA beneficiaries as of July 2007. We
randomly selected 275 individuals from this population for detailed analysis. (See
Appendix C for our Scope, Methodology and Sample Results.)



4
 The FFSCF is used to establish, monitor and control warrant information SSA receives from warrant
sources and ensure SSA reacts timely to the warrant information.
5
  RPS is a computer system containing information about individuals who have applied to be
representative payees and who have been selected as representative payees, as well as the beneficiaries
in their care.
6
    Unverified felony warrants and warrants for probation or parole violators are not matched to RPS.
7
 OIG provides Law Enforcement agencies with information regarding the individual’s current address to
aid in apprehending the fugitive felon and allows 60 days for Law Enforcement agencies to complete their
action. See SSA, Program Operations Manual System (POMS), GN 02613.100.
8
 SSA performs this screening for individuals when they apply to serve as a representative payee, as well
as to individuals already serving as representative payees. See SSA, POMS, GN 00502.133 and
GN 00504.102.
Page 3 - The Commissioner


RESULTS OF REVIEW
SSA’s controls need to be improved to prevent fugitive felons from serving as
representative payees. Based on our sample, we estimate that since the law took
effect in April 2005 through September 2008, about $75.8 million in Social Security
funds was paid to about 6,527 fugitive felons. These payees received benefits for
about 8,384 SSA beneficiaries.

Of the $75.8 million, we estimate that approximately $47.6 million (63 percent) in
benefits was paid to about 2,070 representative payees whose warrants remained
unsatisfied through September 2008. Additionally, about $19.4 million will be paid over
the next 12 months if these warrants remain unsatisfied and the fugitive felons continue
serving as representative payees.

SAMPLE RESULTS

We sampled 275 individuals for whom arrest warrants had been issued and who served
as representative payees. We found that

    123 (45 percent) were representative payees for 158 beneficiaries and received
     $1,429,103 while they had outstanding felony warrants; 9

    96 (35 percent) were not representative payees with active felony warrants; 10 and

    56 (20 percent) were issued warrants for violating conditions of probation or
     parole. 11

Benefits Received by       Of the 123 payees in our sample who had received
Fugitive Felons            $1.4 million in benefits even though they had outstanding
Serving as Payees          arrest warrants, 84 had satisfied their warrants or were no
                           longer serving as representative payees before the start of
our audit; whereas the remaining 39 payees still had active warrants. As of
September 2008:




9
 The 158 beneficiaries are comprised of 88 Title II beneficiaries, 66 Title XVI recipients, and
4 beneficiaries who received both Title II and Title XVI benefits.
10
  For example, in some cases, the payees satisfied their warrants within 30 days; and in some other
cases, the warrants were for misdemeanors.
11
  SSA does not conduct computer matching for representative payees who have warrants outstanding for
probation or parole violations. We plan to conduct a review to quantify the dollars received by probation or
parole violators serving as representative payees.
Page 4 - The Commissioner


     73 representative payees had satisfied their warrants. Before satisfying their
      warrants, these 73 representative payees received $402,787 on behalf of
      95 beneficiaries for an average of 9 months while the warrants were still
      outstanding.
     11 fugitive felons were no longer representative payees because (a) they or the
      beneficiaries they served were deceased; (b) the beneficiaries were no longer
      entitled to benefits; (c) more suitable payees were selected; or (d) direct payment to
      the beneficiaries was established. These 11 representative payees received
      $129,262 on behalf of 11 beneficiaries for an average of 22 months (almost 2 years)
      while the warrants were still outstanding.
     39 representative payees still had outstanding felony warrants at the time of our
      audit, but SSA took corrective action because of our request that it review the cases.
      These 39 representative payees received $897,054 on behalf of 52 beneficiaries for
      an average of 32 months (or over 2 ½ years).

Table 1 shows the number of months the 123 fugitive felons served as representative
payees while their warrants remained unsatisfied. On average, these 123 fugitive
                                       12
felons served as payees for 17 months.

                                           Table 1
                            Number of Months the                    Number of
                          Fugitive Felons Served as               Representative
                           Representative Payees 13                  Payees
                          1 to 12 months                               61
                          13 to 24 months                              21
                          25 to 36 months                              18
                          37 to 42 months                              23
                           Total                                      123

For example, one individual in our sample was selected as representative payee for her
children in July 1998. In February 2006, an outstanding felony warrant for forgery was
issued for the representative payee, but the warrant was not satisfied until June 2007.
Therefore, this individual was considered a fugitive felon while serving as a
representative payee for 17 months (from February 2006 through June 2007), and
during this time, she was paid a total of $30,822 in benefits on behalf of her children.




12
     The median period was 13 months.
13
  This represents the time elapsed from April 2005 or the date the fugitive felon was selected to serve as
representative payee if after April 2005, through the earlier of the date the warrant was satisfied, the date
the fugitive felon stopped serving as payee, or September 2008.
Page 5 - The Commissioner


                           Of the 123 fugitive felons who served as representative
Fugitive Felons
                           payees, 39 (32 percent) were not replaced as
Replaced as
                           representative payees until we requested that SSA review
Representative
                           the cases as part of our audit. We referred these 39 cases
Payees Due to Audit
                           to SSA in June and July 2008. These 39 fugitive felons
                           received $897,054 (of the $1.4 million in benefits) while
their warrants were outstanding. If not for our referral, these 39 fugitive felons would
have received an average of about $9,352 in benefits over the next year.

For example, one representative payee with an unsatisfied drug-related felony warrant
received $23,684 in benefits for more than 2 ½ years. This fugitive felon was selected
as a representative payee in April 2001 and was still a representative payee when the
warrant was issued in October 2005. SSA removed this individual as representative
payee in June 2008 after we referred the case to the Agency. If not for our referral, this
individual would have received about $9,400 in benefits over the next year.

As of September 2008, the Agency had either replaced the representative payees or
suspended benefits to find new representative payees. These 39 fugitive felons served
as representative payees for periods ranging from 13 to 42 months—on average, more
                14
than 2 ½ years.

Offenses Committed         The fugitive felons in our sample were wanted for various
by Fugitive Felons         crimes while serving as representative payees, including
Serving as Payees          larceny, fraud, and drug-related offenses. Chart 1
                           summarizes the types of offenses for which the fugitive
felons in our sample were wanted. 15


                         Chart 1: Type of Offenses for Which the 123 Fugitive Felons
                                           in Sample Were Wanted


                                                                    21% Drug Offenses
         68% Non-Violent,
         Not Drug-Related
         Offenses (This
         includes burglary,
         larceny, forgery,                                              11% Violent
         weapons offenses, etc.)
                                                                        Offenses




14
     The median period was 38 months (over 3 years).
15
     We grouped offenses into violent and non-violent categories per POMS, GN 02613.900.
Page 6 - The Commissioner


BENEFICIARIES WHOSE REPRESENTATIVE PAYEES WERE FUGITIVE FELONS

The 123 individuals who had outstanding felony warrants in our sample served as
                                            16
representative payees for 158 beneficiaries. For these beneficiaries, we found that

    77 (49 percent) were receiving benefits because they were disabled (including
     47 who had mental disorders); 17 and

    81 (51 percent) were not disabled.

Table 2 summarizes the relationship between the representative payee and each
beneficiary.

                                           Table 2
                     Relationship of Payee     Number of
                                                                               Percent
                         to Beneficiary      Beneficiaries
                       Mother                      88                           56%
                       Father                      31                           20%
                       Relative                    14                            9%
                       Child                       10                            6%
                             18
                       Other                       10                            6%
                       Spouse                       2                            1%
                       Stepfather                   2                            1%
                       Grandparent                  1                            1%
                       Total                      158                          100%

For example, a beneficiary was receiving a Title XVI disability benefit for mental
retardation, and his representative payee was selected to manage the benefits in
December 1993. The representative payee was a relative of the beneficiary and had
an outstanding warrant for burglary that was issued in 1991. The fugitive felon
continued to serve as representative payee until we referred the case to SSA in
June 2008. From April 2005, when the law went into effect prohibiting fugitive felons
from serving as representative payees, this fugitive received $25,019 in benefits on




16
  The ages of these beneficiaries varied from 1 to 93 years. As of September 2008, the average age for
these beneficiaries was 20 years; and 115 of the 158 beneficiaries were age 18 or younger.
17
  The other beneficiaries receiving disability benefits were for the following disorders: neurological,
digestive, hematological, growth impairment, respiratory, musculoskeletal, and other various disabilities.
18
  The relationship classified as “Other” could include, but is not restricted to (1) a friend; (2) an unrelated
volunteer payee; (3) an unrelated guardian; or (4) a room and board provider.
Page 7 - The Commissioner


behalf of the mentally disabled beneficiary. 19 We referred this case to SSA in
June 2008, and the Agency replaced the fugitive with a more suitable representative
payee. Had we not referred this case to SSA, the fugitive felon would have received
$7,644 over the next 12 months.

WHY FUGITIVE FELONS WERE NOT REPLACED AS REPRESENTATIVE PAYEES

SSA began matching between FFSCF and RPS in November 2005. If a match is
found, an alert is supposed to be generated in RPS indicating the representative payee
is a fugitive felon. However, our analysis of the sample cases showed that SSA’s
matching process did not identify all payees who were fugitive felons, and alerts were
                        20
not generated in RPS. Therefore, it appears the matching between FFSCF and RPS
is incomplete. We notified SSA’s Office of Systems of this issue in September 2008.
As of February 2009, Systems staff were reviewing the matching process to determine
why it was not identifying all cases.

If the matching process does not generate alerts and annotate RPS, SSA field office
employees cannot determine whether a representative payee has an outstanding
warrant, and fugitive felons continue to serve as payees.

CONCLUSION AND RECOMMENDATIONS

Although SSA implemented a computer match in November 2005 to identify fugitive
felons serving as representative payees and established procedures for addressing the
identified cases, we estimate that about 6,527 fugitive felons received about
$75.8 million in Social Security funds while serving as representative payees for others.
Additionally, we estimate about $19.4 million will be paid over the next 12 months if the
individuals who still have unsatisfied felony warrants continue to serve as representative
payees.

We recommend SSA:

1. Conduct a match between FFSCF and RPS to identify all representative payees
   with unsatisfied felony warrants (including those representative payees who were
   selected before November 2005) and determine whether more suitable
   representative payees are needed.

2. Review its current computer matching process to ensure that, in the future, alerts
   are generated and resolved for all representative payees with outstanding felony
   warrants.

19
  The payee received $68,276 before the Social Security Protection Act of 2004—between
December 1993 when he was selected as payee while having an outstanding felony warrant until
April 2005 when the law took effect.
20
  The representative payees for 121 of the 158 beneficiaries were selected before November 2005 and
the payees for the remaining 37 beneficiaries were selected after November 2005.
Page 8 - The Commissioner


AGENCY COMMENTS

SSA agreed with the recommendations (see Appendix D).




                                           Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Representative Payee Fugitive Felon Alert Process

APPENDIX C – Scope, Methodology and Sample Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                              Appendix A

Acronyms
AMFED         Allegation Management and Fugitive Enforcement Division
FFSCF         Fugitive Felon SSA Control File
OIG           Office of the Inspector General
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
RPS           Representative Payee System
SSA           Social Security Administration
                                                                   Appendix B

Representative Payee Fugitive Felon Alert
Process
   Warrant File (Contains both fugitive felons
      and probation or parole violators.)



             Was the identity of the                      Unverified
               individual and the                 No    Social Security
                 existence of an                        numbers (SSN)         Stop
              unsatisfied warrant                        and warrants
                    verified?                            are dropped.

                          Yes

                                                        Duplicate SSNs are dropped.
             Is the SSN new to the                No    SSNs for probation or parole
               Fugitive Felon SSA
                                                        violators are not matched to
              Control File (FFSCF)
                                                         the Representative Payee
             and a felony warrant?
                                                               System (RPS).
                           Yes

  Fugitive Felon SSNs are matched daily to RPS.




            Is the individual serving
                                                       No
             or applying to serve as
                                                                    Stop
            a representative payee
              for another person?

                          Yes
      RPS is annotated and the payee’s or
   applicant’s address is retained in FFSCF to
     shared with law enforcement agencies.

                                                                  To page
                                                                    B-2



                                        B-1
From page
   B-1


                      Is the warrant still                 No
                     unsatisfied after 60
                            days?

                                 Yes

                    Is the fugitive felon
                                                           No
                   representative payee
                                                                          Stop
                  matched a second time
                          in RPS?

                                 Yes

       RPS is annotated and a fugitive felon alert is
         sent to the local Social Security office.                   OIG Note: Our audit found
                                                                     that the matching process
                                                                     between FFSCF and RPS
            Local SSA office staff determine the                     was incomplete—not all
       suitability of the individual to continue serving             cases were identified and
                  as a representative payee.                         alerts were not always
                                                                     generated in RPS.



                   Has the representative                  No
                    payee satisfied the
                         warrant?

                                 Yes

                                                                SSA removes the fugitive
                  Is the individual suitable               No
                                                                as representative payee
                  to continue serving as a
                                                                  and appoints a new
                   representative payee?
                                                                        payee.

                               Yes
      SSA manually documents RPS and clears the
        fugitive felon issue. The issue remains in                        Stop
          RPS as a matter of record for 5 years.




                                             B-2
                                                                        Appendix C

Scope, Methodology and Sample Results
To accomplish our objective, we:
   Researched the Social Security Act and the Social Security Protection Act of 2004;
    as well as the Social Security Administration’s (SSA) regulations, policies and
    procedures related to fugitive felons and representative payees.
   Obtained a file of fugitive records from the Office of the Inspector General’s Office of
    Investigations as of June 2007. Through computer analysis, we identified
    14,594 individuals with warrants who were representative payees for Title II and XVI
    beneficiaries as of July 2007. We randomly selected 275 individuals from this
    population for detailed analysis. Specifically, we

        calculated the funds paid to fugitive felons while serving as representative
         payees;
        confirmed with the Office of the Inspector General’s Allegation Management
         and Fugitive Enforcement Division (AMFED) the warrant’s status (such as
         whether the warrant was still outstanding);
        confirmed that AMFED had referred these cases to SSA for action; and
        referred to the Office of Operations cases in our sample that had fugitive
         felons serving as representative payees for corrective action.

   Obtained information from SSA’s Offices of Systems and Operations concerning the
    representative payee fugitive felon alert process.
   Consulted with SSA’s Office of General Counsel and the Office of the Inspector
    General’s Office of the Counsel to the Inspector General concerning parole and
    probation violators.

We conducted our audit in Boston, Massachusetts, between May and October 2008.
We tested the data obtained for our audit and determined them to be sufficiently
reliable to meet our objective. The entity audited was SSA’s Office of Systems under
the Deputy Commissioner for Systems.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




                                            C-1
SAMPLE RESULTS AND ESTIMATES/PROJECTIONS

                         Table 1: Population and Sample Size
                         Population Size                     14,594
                         Sample Size                            275

FUGITIVE FELONS SERVING AS REPRESENTATIVE PAYEES
                                                  Number of
 Table 2: Fugitive Felons Who                                    Number of
                                                   Fugitive                      Dollars
 Served as Representative Payees                                Beneficiaries
                                                   Felons
 Sample Results                                       123           158          $1,429,103
 Point Estimate                                     6,527                       $75,841,193
 Projection Lower Limit                             5,797                       $60,494,624
 Projection Upper Limit                             7,270                       $91,187,762
Note: All projections are at the 90-percent confidence level.

To estimate the number of beneficiaries, we conducted the following ratio analysis:
158 beneficiaries divided by 123 fugitive felons equals 1.2845. Multiplying 1.2845 by
6,527 (the point estimate) provides an estimate of 8,384 beneficiaries who had their
funds received by fugitive felons.
Table 3: Fugitive Felons Who Served             Number of
                                                                 Number of
as Representative Payees that Need               Fugitive                        Dollars
                                                                Beneficiaries
to be Replaced                                   Felons
Sample Results                                       39              52            $897,054
Point Estimate                                    2,070                         $47,605,817
Projection Lower Limit                            1,587                         $33,285,637
Projection Upper Limit                            2,638                         $61,925,997
Note: All projections are at the 90-percent confidence level.

To estimate the number of beneficiaries, we conducted the following ratio analysis:
52 beneficiaries divided by 39 fugitive felons equals 1.3333. Multiplying 1.3333 by
2,070 (the point estimate) provides an estimate of 2,760 beneficiaries who had their
funds received by fugitive felons and still need the payee replaced.

Funds Received Over the Next 12 Months by Payees Who Have Outstanding
Felony Warrants as of September 2008

Within our sample, 39 fugitive felons will receive an average of $9,352 in funds over the
next 12 months if not replaced as payees. Therefore, we estimate that approximately
$19,358,640 will be received by about 2,070 fugitive felons (from Table 3 above) over
the next 12 months if not replaced with new payees.




                                                    C-2
                  Appendix D

Agency Comments
                                             SOCIAL SECURITY

MEMORANDUM


Date:      March 25, 2009                                                          Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn               /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Fugitive Felons Serving As Representative
           Payees (A-01-08-18021)”—INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate the
           comprehensive work that the OIG auditing team did on this report and the prior related audit.
           Our response to the report findings and recommendations is attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
FUGITIVE FELONS SERVING AS REPRESENTATIVE PAYEES (A-01-08-18021)


We agree that it is important to identify all representative payees (rep payees) with unsatisfied
felony arrest warrants to determine whether or not we need to replace them. We will change our
current computer matching process to ensure that we generate and resolve alerts. We expect,
however, that we will have to modify the way in which we process fugitive felon information in
the near future depending on the settlement of a nationwide class action lawsuit that is currently
pending; Martinez v. Astrue, No. 08-4735 (N.D. Cal.).


Recommendation 1

Conduct a match between the Fugitive Felon SSA Control File and the Representative Payee
System to identify all rep payees with unsatisfied felony warrants (including those rep payees
who were selected before November 2005) and determine whether more suitable rep payees are
needed.

Comment

We agree. We will conduct a match for the offense codes specified in the final settlement and
then work to determine whether or not we need a more suitable rep payee.


Recommendation 2

Review our current computer matching process to ensure that, in the future, we generate and
resolve alerts for all rep payees with outstanding felony warrants.

Comment

We agree. We will review our computer matching process to ensure that, in the future, we
generate and resolve alerts for all rep payees with outstanding felony arrest warrants for the
offense codes specified in the final settlement.




                                                D-2
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   Jeffrey Brown, Audit Manager

Acknowledgments

In addition to those named above:

   Kevin Joyce, IT Specialist

   N. Brennan Kraje, Statistician

   Frank Salamone, Senior Auditor

   David York, Program Analyst

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-08-18021
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
